HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation Blue Cross and Blue Shield of Oregon, (A-07-95-01150)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation Blue Cross and
Blue Shield of Oregon," (A-07-95-01150)
October 25, 1995
Complete Text of Report is available in PDF format
(142 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Medicare Contractor's
Pension Segmentation, Blue Cross and Blue Shield of Oregon. Our review showed
that Oregon overstated Medicare segment pension assets as of 1986 by $170,415.
The overstatement occurred because Oregon inadvertently used the 1981 rather
than the 1984 asset fraction when identifying the January 1, 1986 Medicare assets.
However, Oregon's update of the Medicare segment assets from Plan Year 1986
to Plan Year 1994 understated segment assets by $361,727. The Understatement
primarily occurred because Oregon used incorrect participant data and did not
equitably assign pension contributions. We recommended that Oregon increase
the January 1, 1994 assets of the medicare segment by $191,312 ($361,727 less
$170,415).